August 28, 2020
Via Mail, Electronic Filing, and E-mail
Re:

Daniel Sohn, et ux., v. Mariposa County, California, et al., Case No. 20-190
California Court Case No. F076677

Dear Clerk of the Court:
This office represents Respondent Mariposa County, California (“Respondent”).
Respondent requests an extension of time to respond to the petition for a writ of certiorari that
was filed on August 14, 2020. We request an additional 30 days after the court mandated
deadline of September 18, 2020.
Pursuant to Supreme Court Rule 30.4, Respondent requests an additional thirty-day
extension to respond to Petitioner’s petition for a writ of certiorari. Respondent’s counsel has
several conflicts in California courts over the course of the next month preventing proper
response to the petition listed above. Within the next thirty days, Respondent’s counsel must file
responsive pleadings with coordinating hearings in five California court cases and one trial that
begins the week of September 18, 2020.
Co-counsel for Respondent agrees to the extension request, and the request is timely
pursuant to Supreme Court Rule 15.
If this above does not adequately address the need for an extension of time, please contact
me. Thank you for your time and consideration
Sincerely,

Glen C. Hansen
Attorney for Respondent
County of Mariposa, California
GCH/kk
cc:
Janice Mazur
Steven Dahlem
Oliver Wanger
2100 TWENTY FIRST STREET

SACRAMENTO, CALIFORNIA 95818 ■ T 916.456.9595 F 916.456.9599
www.aklandlaw.com ■ blog.aklandlaw.com

■

